                                                            United States Department of State
                                                            and the Broadcasting Board of Governors

                                                            Office of lrlSpector General



                                                                            AUG 31 1011

The Honorable Edward Drusina, U.S . Commissioner
International Boundary and Water Commission
United States and Mexico, U.S. Section
4171 North Mesa Street, Suite C-1 00
EI Paso, TX 79902-1441

Dear Commis~ina:

Enclosed for your review and action is a copy of the report Audit ofInternational Boundary and
Waler Commission Construction Contract With Ultimate Concrete, LLC, Using Funds Provided
by the American Recovery and Reinvestment Act (AUD/CO-I I- 17). As the action office for the
report's four recommendations, please provide your response to the report and infonnation on
actions taken or planned for the recommendations within 30 days of the date of this letter.
Actions taken or planned are subject to followup and reporting in accordance with the enclosed
compliance response information.

The Office of lnspector General (OIG) incorporated your comments as appropriate within the
body of the report and included them in their entirety as Appendix B.

QIG appreciates the cooperation and assistance provided by your staff during this audit. If you
have any questions, please contact Evelyn R. Klemstine, Assistant Inspector General for Audits,
at (202) 663 -0372 or Richard Astor, Director, Contracts and Grants Division, at (703) 284-2601
or by email at astorr@state.gov.

Sincerely,




Enclosures: As slated.

cc; 	 IBWC ­ (b) (6)
      IBWC (b) (6)
     WHNM          (b) (6)
    NLM/AQM (b) (6)
    RMlBP (b) (6)
                                         UNC LASSIFIED 





                         United States Department of State 

                      and the Broadcasting Board of Governors 


                                Office of Inspector General 


                                        Office of Audits 





                                       Audit of 

                             International Boundary and 

                      Water Commission Construction C ontract 

                           With Ul timate Concrete, LLC, 

                            Using Funds Provided by the 

                      Ame rican Recovery and Reinvestment Act 




                                        AUD/CG-II-17
                                         August 2011




                                          Important Notice

This report is intended solely for the official usc or the Department of State or the Broadcasting
Board of Govcmors. or any agency Of organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made. in whole or in part. outside the
Department of State or the Broadcasting Board ofOovemors, by them or by other agencies or
organizations. without prior authorization by the Inspector General. Public avai lability of the
document will be dctcmlined by the Inspector General under the U.S. Code. 5 U.S.C. § 552.
Improper disclosure orth is repon may result in criminal. civil, or administrative penalties.




                                         UNCLASSIFIE[) 

                                             PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General’s (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

        This report addresses the International Boundary and Water Commission’s (IBWC)
compliance with Federal, Department, and American Recovery and Reinvestment Act (Recovery
Act) acquisition management practices. The report is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of applicable
documents.

       OIG contracted with the independent public accountant, Cotton & Company, LLP, to
perform this audit. The contract required that Cotton perform its audit in accordance with
guidance contained in the Government Auditing Standards, issued by the Comptroller General of
the United States. Cotton’s report is included.

       Cotton identified three areas in which improvements could be made: complying with all
relevant Federal laws and regulations, including those of the Recovery Act; having adequate
processes and systems in place to collect information required to be reported by the Recovery
Act; and providing complete and accurate information as required by the Recovery Act.

       OIG evaluated the nature, extent, and timing of Cotton’s work; monitored progress
throughout the audit; reviewed Cotton’s supporting documentation; evaluated key judgments;
and performed other procedures as appropriate. OIG concurs with Cotton’s findings, and the
recommendations contained in the report were developed on the basis of the best knowledge
available and were discussed in draft form with those individuals responsible for
implementation. OIG’s analysis of management’s response to the recommendations has been
incorporated into the report. OIG trusts that this report will result in more effective, efficient,
and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.



                                       Harold W. Geisel
                                       Deputy Inspector General
                                      UNCLASSIFIED





Audit of International Boundary and Water Commission Construction Contract With Ultimate
Concrete, LLC, Using Funds Provided by the American Recovery and Reinvestment Act



Office of Inspector General
U.S. Department of State
Washington, D.C.

Cotton & Company, LLP (referred to as “we” in this letter), has performed an audit of the
International Boundary and Water Commission’s (IBWC) construction contract with Ultimate
Concrete, LLC, using funds provided by the American Recovery and Reinvestment Act
(Recovery Act). We evaluated Ultimate’s compliance with relevant Federal laws and
regulations, including those of the Recovery Act; adequacy of processes and systems in place to
collect information required to be reported by the Recovery Act; and accuracy and completeness
of required report submissions. This performance audit, performed under Contract No. S-AQM­
PD-04-D0035, was designed to meet the objective identified in the report section titled
“Objective” and further defined in Appendix A, “Scope and Methodology.”

We conducted this performance audit in accordance with Government Auditing Standards, issued
by the Comptroller General of the United States. We communicated the results of our
performance audit and related findings and recommendations to the U.S. Department of State
Office of Inspector General.

We appreciate the cooperation provided by personnel in Department offices during the audit.


COTTON & COMPANY, LLP




Michael W. Gillespie, CPA, CFE
Partner


Alexandria, Virginia
August 2011



                                      UNCLASSIFIED

                               UNCLASSIFIED



ACRONYMS

Department     Department of State

FAR            Federal Acquisition Regulation

IBWC           International Boundary and Water Commission

OIG            Office of Inspector General

Recovery Act   Recovery and Reinvestment Act of 2009




                               UNCLASSIFIED

                                    UNCLASSIFIED



                                   TABLE OF CONTENTS



Section                                                                           Page
Executive Summary                                                                     1
Background                                                                            2
Objective                                                                             2
Results of Audit                                                                      3
   Finding A: Contractor Did Not Comply With All Contract Terms and Conditions        3
   Finding B: Required Subcontractor Forms and Certifications Were Not Obtained       5

   Finding C: Buy American Act Controls Were Not in Place                             5

   Finding D: Recovery Act Reporting Was Inaccurate and Incomplete                    6

List of Recommendations                                                               8

Appendices
A Scope and Methodology                                                               9

B International and Boundary Water Commission Response                               11





                                    UNCLASSIFIED

                                        UNCLASSIFIED


                                    E xecutive Summar y
       The Department of State, Office of Inspector General, Office of Audits, engaged
Cotton & Company, LLP (referred to as “we” in this report), to conduct performance audits of
contractors that received funding provided by the American Recovery and Reinvestment Act of
2009 (Recovery Act) from the International Boundary and Water Commission (IBWC). The
audit objective was to determine whether contractors that received Recovery Act funds from
IBWC complied with relevant Federal laws and regulations, including those of the Recovery
Act; had adequate processes and systems in place to collect information required to be reported
by the Recovery Act; and submitted required reports that are accurate and complete. One
contractor selected for review was Ultimate Concrete, LLC.

       Ultimate was awarded two Recovery Act-funded contracts. Contract No. IBM10C0009
was awarded on June 10, 2010, for $8,315,392.80 to furnish all labor, materials, and equipment
for construction of improvements on the Upper Rio Grande Flood Control Project, Rehabilitation
Improvements for Fabens Levee Reach in El Paso County and the Fort Hancock Reach in
Hudspeth County, Texas. Ultimate invoiced and was paid $3,467,859.07 for work performed
through November 2010.

        Contract No. IBM10C0018 was awarded on September 10, 2010, for $9,249,621.57 to
furnish all labor, materials, equipment, and incidentals necessary to complete construction for the
Upper Rio Grande Flood Control Project, Sunland Park Canutillo Levee Segment, Doña Ana
County, New Mexico, and El Paso County, Texas. Through November 2010, Ultimate invoiced
and was paid $1,578,703.75 on this contract.

       Ultimate did not comply with all construction contract terms and conditions or relevant
Federal laws and regulations, including those of the Recovery Act; did not have adequate
processes and systems in place to ensure that subcontractors were aware of and met Recovery
Act Federal Acquisition Regulation (FAR) requirements; did not have controls for ensuring
compliance with the Buy American Act; and did not accurately report subcontractor data as
required by the Recovery Act.

        We discussed the tentative results of this audit with Ultimate officials during fieldwork
and with IBWC officials on January 12, 2011. We recommended that the IBWC contracting
officer require Ultimate to establish procedures for complying with FAR requirements, obtain
and submit contractor certifications, establish procedures for complying with the Buy American
Act, and ensure that relevant contracting information is provided timely for reporting on the Web
site FederalReporting.gov.

        In its response to the draft report (see Appendix B), IBWC concurred with the report’s
four recommendations. Based on the response OIG considers the recommendations resolved,
and they will be closed pending review and acceptance of documentation for the actions OIG
specified. The response and OIG’s analysis are presented after each recommendation.




                                                1

                                        UNCLASSIFIED
                                        UNCLASSIFIED


                                         B ackgr ound
        IBWC is an international body composed of the United States Section and the Mexican
Section. Each section is administered independently of the other. The United States Section is a
Federal Government agency and has its headquarters in El Paso, Texas. IBWC operates under
the foreign policy guidance of the Department of State. The mission of IBWC is to apply the
rights and obligations that the Governments of the United States and Mexico assume under the
numerous boundary and water treaties and related agreements. IBWC’s obligations include
construction, operation, and maintenance of levees and floodway projects along the Rio Grande
River.

        The Recovery Act provided $220 million to IBWC for the Rio Grande Flood Control
System Project to evaluate needed repairs and/or rehabilitation of deficient portions of the flood
control systems, with all funds required to be obligated by September 30, 2010. Repairs and
rehabilitation entail raising levee segments to original design levels and reconstructing segments
where the integrity of the structures has been compromised. The project consists of two primary
phases: the Pre-construction Phase, which involves geotechnical investigations, environmental
documentation, and design, and the Construction Phase, which involves project construction.
IBWC projects can continue to expend Recovery Act funds for contracts as long as those funds
were obligated by September 30, 2010.

       Ultimate was awarded two Recovery Act-funded contracts. Contract No. IBM10C0009
was awarded on June 10, 2010, for $8,315,392.80 to furnish all labor, materials, and equipment
for construction of improvements on the Upper Rio Grande Flood Control Project and
Rehabilitation Improvements for Fabens Levee Reach in El Paso County and the Fort Hancock
Reach in Hudspeth County, Texas. Ultimate invoiced and was paid $3,467,859.07 for work
performed through November 2010. The Notice to Proceed was issued on July 12, 2010, with a
performance period of 330 calendar days.

        Contract No. IBM10C0018 was awarded on September 10, 2010, for $9,249,621.57 to
furnish all labor, materials, equipment, and incidentals necessary to complete construction for the
Upper Rio Grande Flood Control Project, Sunland Park Canutillo Levee Segment, Doña Ana
County, New Mexico, and El Paso County, Texas. Through November 2010, Ultimate invoiced
and was paid $1,578,703.75 on this contract. The Notice to Proceed was issued on September
28, 2010, with a performance period of 501 calendar days.

                                           Objective
        The audit objective was to determine whether contractors that received Recovery Act
funds from IBWC complied with relevant Federal laws and regulations, including those of the
Recovery Act; had adequate processes and systems in place to collect information required to be
reported by the Recovery Act; and submitted required reports that are accurate and complete.




                                                2

                                        UNCLASSIFIED
                                                UNCLASSIFIED


                                               R esults of A udit
       Ultimate did not comply with all construction contract terms and conditions or relevant
Federal laws and regulations, including those of the Recovery Act; did not have adequate
processes and systems in place to ensure that subcontractors were aware of and met Recovery
Act FAR requirements; did not have controls over ensuring compliance with the Buy American
Act; and did not accurately report subcontractor data as required by the Recovery Act.

Finding A. Contractor Did Not Comply With All Contract Terms and
Conditions
       The contractor Ultimate did not comply with all terms and conditions of its Recovery Act
construction contract. Specifically, Ultimate and its subcontractors did not enroll as Federal
contractors in E-Verify within 30 days of contract award, as required by the FAR. 1 The FAR
requires Federal contractors and subcontractors to enroll “as a Federal Contractor in the E-Verify
program within 30 calendar days” of contract award. Ultimate also did not verify that employees
were eligible to work in the United States, which is also required by the FAR. 2

        E-Verify is an Internet-based free program run by the U.S. Government that compares
information about an employee’s employment eligibility from IBWC Form I-9, Employment
Eligibility Verification, with data from U.S. Government records. If the information matches,
that employee is eligible to work in the United States. If there is a mismatch, E-Verify alerts the
employer, and the employee is allowed to work while he or she resolves the problem within
8 business days. The program is operated by the Department of Homeland Security in
partnership with the Social Security Administration.

       Also, Ultimate did not consistently maintain evidence that it verified employee eligibility
to work in the United States. Of the 61 employee files reviewed, only one Form I-9 was properly
completed. Except for four employee files that were missing, forms were available for the other
employees, but most of the forms did not have signatures of the contractor to indicate that the
information had been validated.

       Instructions for Forms I-9 require all employees (citizen and noncitizens) hired after
November 6, 1986, and working in the United States to complete the form, and the employers
must retain the completed forms for 3 years after the date of hire or 1 year after the date
employment ends, whichever is later.

       Ultimate management officials stated that they were unaware of the requirement to use
the E-Verify system. Ultimate did not have controls to ensure that eligibility verification
documents were consistently complete and accurate.



1
    FAR 52.222-54(b)(1)(i) and (e), “Employment Eligibility Verification.” (Jan. 2009)
2
    FAR 52.222-54(b)(1)(ii)-(b)(1)(iii).

                                                           3

                                                UNCLASSIFIED
                                              UNCLASSIFIED


        In addition, Ultimate did not have a code of business ethics, as required by the FAR. 3
Specifically, a contractor is required to have, “within 30 days after contract award,” a “written
code of business ethics and conduct” and to make the code available to every employee working
on the contract. The FAR 4 also requires the contractor to “exercise due diligence to prevent and
detect criminal conduct” and to “otherwise promote an organizational culture that encourages
ethical conduct and a commitment to compliance with the law.”

        Ultimate officials stated that they were unaware of the requirement to have a code of
conduct in place. Without adequate controls in place, the contractor may not be able to identify
potential areas of waste, fraud, or abuse in its Federal contracting. In addition, contractor
personnel may not understand their roles in or identify methods for reporting suspected waste,
fraud, or abuse.

        Finally, Ultimate and its subcontractor had no controls in place and did not ensure
compliance with affirmative action. The FAR 5 requires the contractor to take “affirmative action
to ensure equal employment opportunity” and further requires contractor compliance to be
“based upon its effort to achieve maximum results from its actions.” The FAR 6 further requires
the efforts to be fully documented and affirmative action steps to be implemented. Ultimate
representatives stated that they were unaware of these FAR requirements.

        Recommendation 1. We recommend that the International Boundary and Water
        Commission (IBWC) contracting officer for IBWC Contract Nos. IBM10C0009 and
        IBM10C0018 require that the contractor Ultimate Concrete, LLC, implement procedures
        to ensure that it and its subcontractors comply with Federal Acquisition Regulation
        requirements as they pertain to enrolling as a Federal contractor, ensuring employment
        eligibility, creating a code of business ethics and conduct, and ensuring affirmative
        action.

        IBWC Response: IBWC concurred with the recommendation, stating that the contract
        with Ultimate contains the FAR-required Employment Eligibility Verification clause,
        which requires the contractor to enroll in the E-Verify program within 30 days of contract
        award. IBWC further stated that the contractor was notified to provide evidence of the
        code of business ethics and conduct within 15 days of the response to the audit.

        OIG Analysis: Based on the response, OIG considers the recommendation resolved.
        The recommendation can be closed pending OIG’s review and acceptance of
        documentation showing that Ultimate has complied with the stated FAR requirements.




3
  FAR 52.203-13(b)(1)(i)-(b)(1)(ii), “Contractor Code of Business Ethics and Conduct.” (Dec. 2008)

4
  FAR 52.203-13(b)(2)(i)-(b)(2)(ii).

5
  FAR 52-222-27(g), “Affirmative Action Compliance Requirements for Construction.” (Feb. 1999)

6
  Ibid.


                                                        4

                                              UNCLASSIFIED
                                           UNCLASSIFIED



Finding B. Required Subcontractor Certifications Were Not Obtained
       The contractor Ultimate did not obtain certification from two of its subcontractors that, at
the time of award, “the subcontractor, or its principals, is or is not debarred, suspended, or
proposed for debarment by the Federal Government” in accordance with the FAR. 7 Ultimate
representatives stated that they did not obtain the certifications because they work with the
subcontractor on a regular basis and did not believe the certifications were necessary.

        The failure to obtain the required certifications could result in subcontracts being
awarded to companies that have been debarred, suspended, or proposed for debarment. We were
able to verify that the subcontractors were not included in the Excluded Parties List System
(EPLS), which is an electronic Web-based system that identifies those parties excluded from
receiving Federal contracts.

        Recommendation 2. We recommend that the International Boundary and Water
        Commission (IBWC) contracting officer for IBWC Contract Nos. IBM10C0009 and
        IBM10C0018 require that the contractor Ultimate Concrete, LLC, obtain and submit
        current subcontractor certification to confirm that it or its principals are not debarred,
        suspended, or proposed for debarment and that the contracting officer ensures that
        Ultimate establishes procedures to obtain these certifications before additional
        subcontracts are awarded.

        IBWC Response: IBWC concurred with the recommendation and provided an IBWC
        revised payment application verification form; a directive for contractors to submit
        payment estimates, its list of subcontractors, and accompanying SFs 1413; and an April
        29, 2011, certification from Ultimate stating that all applicable SFs 1413 had been
        submitted.

        OIG Analysis: Based on the response, OIG considers the recommendation resolved.
        The recommendation can be closed pending OIG’s review and acceptance of
        documentation showing certifications from Ultimate and its subcontractors confirming
        that Ultimate or its principles are not debarred, suspended, or proposed for debarment and
        Ultimate’s procedures to obtain the certifications before additional subcontracts are
        awarded.

Finding C. Buy American Act Controls Were Not in Place
       The contractor Ultimate did not have policies and procedures in place to ensure that all
construction materials used on the construction projects were produced in the United States. The
FAR 8 defines “construction material” as “an article, material, or supply brought to the

7
  FAR 52-209-6(b), “Protecting the Government’s Interest When Subcontracting with Contractors Debarred,

Suspended, or Proposed for Debarment.” (Sept. 2006)

8
  FAR 52.225-21(a), “Required Use of American Iron, Steel, and Other Manufactured Goods–Buy American Act–

Construction Materials.” (March 2009)


                                                     5

                                           UNCLASSIFIED
                                           UNCLASSIFIED


construction site” by the contractor or subcontractor “for incorporation into the building or
work.” The FAR 9 requires “unless an exception applies, that all iron, steel, and other
manufactured goods used as construction material in the project” be produced in the United
States for Recovery Act-funded projects. This clause also implements the Buy American Act 10
by providing a preference for unmanufactured domestic construction material.

       Ultimate personnel incorrectly relied on the procedures it used with other Federal
customers and had not considered additional Recovery Act requirements. Ultimate was able to
provide us with certifications after the fact that the purchases did meet Buy American Act
requirements.

        Without procedures, a contractor and/or a subcontractor could be in violation of the Buy
American Act, for which corrective actions can include removing and replacing the improperly
purchased foreign-manufactured goods, reducing the amount of the award, or even withholding
future funds.

        Recommendation 3. We recommend that the International Boundary and Water
        Commission (IBWC) contracting officer for IBWC Contract Nos. IBM10C0009 and
        IBM10C0018 require that the contractor Ultimate Concrete, LLC, establish procedures to
        ensure that materials purchased for American Recovery and Reinvestment Act
        construction projects comply with the Buy American Act.

        IBWC Response: IBWC concurred with the recommendation, stating that it has been
        requiring contractors to comply with the Buy American Act and that the contractor “is
        made aware” that any material that does not comply with the Act “will not be paid for
        and may need to be removed at contractor’s expense.” IBWC further stated that its
        contracting officer’s representatives assigned to each project “assure . . . the acceptability
        of the material furnished” by the contractor of subcontractors before “acceptance of any
        payment application.” IBWC also stated that its contracted support service providers
        “will again be directed to be more vigilant of this requirement.”

        OIG Analysis: Based on IBWC’s response, OIG considers the recommendation
        resolved. The recommendation can be closed pending OIG’s review and acceptance of
        documentation showing IBWC’s certification of or an excerpt of Ultimate’s procedures
        for ensuring that materials purchased for Recovery Act construction projects are in
        compliance with requirements of the Buy American Act.

Finding D. Recovery Act Reporting Was Inaccurate and Incomplete

        The contractor Ultimate did not report accurate subcontractor information on the Web
site FederalReporting.gov as required for third quarter 2010 reporting. The FAR 11 outlines
9
  FAR 52.225-21(b)(1)(i)-(b)(1)(ii).

10
   41 U.S.C. §§ 8301-8305.

11
   FAR 52.204-11(d)(9)-(d)(10), “American Recovery and Reinvestment Act, Reporting Requirements.” (March

2009)


                                                     6

                                           UNCLASSIFIED
                                       UNCLASSIFIED


specific information that is to be reported, including subcontractor award information. Ultimate
personnel responsible for reporting on FederalReporting.gov stated that they were unaware of the
subcontract agreement at the time of reporting and therefore did not report the subcontract award
information. Without complete and accurate reporting, all contract information is not available
to the Government and the public, thereby defeating one goal of the Recovery Act:
transparency.

       Recommendation 4. We recommend that the International Boundary and Water
       Commission (IBWC) contracting officer for IBWC Contract Nos. IBM10C0009 and
       IBM10C0018 require that the contractor Ultimate Concrete, LLC, ensure that relevant
       contracting information is provided in a timely manner to personnel responsible for
       reporting on the Web site FederalReporting.gov.

       IBWC Response: IBWC concurred with the recommendation, stating that the Web site
       “provides online training to contractors” that it agreed “may be underutilized” by the
       prime contractor and subcontractors. IBWC further stated that its Recovery Act
       recipients are required to certify that their Recovery Act reporting specialists have taken
       the seven “webinars [Web-based seminars].”

       OIG Analysis: Based on IBWC’s response, OIG considers the recommendation
       resolved. The recommendation can be closed pending OIG’s review and acceptance of
       documentation showing that IBWC Recovery Act reporting specialists have completed
       the proposed training.




                                                7

                                       UNCLASSIFIED
                                       UNCLASSIFIED



                                List of Recommendations

Recommendation 1. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract Nos. IBM10C0009 and IBM10C0018 require
that the contractor Ultimate Concrete, LLC, implement procedures to ensure that it and its
subcontractors comply with Federal Acquisition Regulation requirements as they pertain to
enrolling as a Federal contractor, ensuring employment eligibility, creating a code of business
ethics and conduct, and ensuring affirmative action.

Recommendation 2. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract Nos. IBM10C0009 and IBM10C0018 require
that the contractor Ultimate Concrete, LLC, obtain and submit current subcontractor certification
to confirm that it or its principals are not debarred, suspended, or proposed for debarment and
that the contracting officer ensures that Ultimate establishes procedures to obtain these
certifications before additional subcontracts are awarded.

Recommendation 3. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract Nos. IBM10C0009 and IBM10C0018 require
that the contractor Ultimate Concrete, LLC, establish procedures to ensure that materials
purchased for American Recovery and Reinvestment Act construction projects comply with the
Buy American Act.

Recommendation 4. We recommend that the International Boundary and Water Commission
(IBWC) contracting officer for IBWC Contract Nos. IBM10C0009 and IBM10C0018 require
that the contractor Ultimate Concrete, LLC, ensure that relevant contracting information is
provided in a timely manner to personnel responsible for reporting on the Web site
FederalReporting.gov.




                                                8

                                       UNCLASSIFIED
                                             UNCLASSIFIED



                                                                                                  A ppendix A

                                       Scope and M ethodology
        The Department of State (Department), Office of Inspector General (OIG), Office of
Audits, engaged Cotton & Company, LLP (referred to as “we” in this appendix), to conduct
performance audits of contractors that received American Recovery and Reinvestment Act
(Recovery Act) funds from the International Boundary and Water Commission (IBWC). One of
the contractors selected for review was Ultimate Concrete, LLC, in Harlingen, Texas. The audit
included Recovery Act funds expended through November 30, 2010, with fieldwork conducted
in December 2010.

        We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on audit objectives.

        To meet our audit objectives, we used the following methodology:

        •	 Reviewed documentation available on the Internet for Ultimate and its subcontractors
           to evaluate their eligibility to perform on Government contracts and validate the
           entity status of the organizations.
        •	 Selected and tested a sample of Recovery Act reports on the Web site
           FederalReporting.gov to determine whether information reported was accurate and
           supported.
        •	 Determined whether Ultimate had established and functioning processes to ensure
           compliance with Buy American Act requirements.
        •	 Selected and tested a sample of Ultimate- and subcontractor-certified payrolls to
           verify compliance with Davis-Bacon Act 1 and Copeland Act 2 requirements and to
           ensure that processes were in place to validate employment eligibility of those
           individuals performing on the contract.
        •	 Reviewed and evaluated subcontracts executed by Ultimate to ensure inclusion of
           proper clauses, receipt of debarment certifications, notification made to IBWC of
           active subcontracts, and timely payments.
        •	 Evaluated whether Ultimate and its subcontractors had proper programs in place to
           ensure compliance with code of business ethics, equal opportunity, and affirmative
           action requirements.




1
  The Davis-Bacon Act requires Federal contractors to pay prevailing wages, as defined by the Wage and Hour
Division of the U.S. Department of Labor, on Federally funded or assisted construction projects.
2
  The Copeland “Anti-Kickback” Act prohibits Federal contractors or subcontractors engaged in building
construction or repair from inducing an employee to give up compensation.

                                                       9

                                             UNCLASSIFIED
                                      UNCLASSIFIED



Review of Internal Controls

       We reviewed the contractor Ultimate’s controls to ensure its own and subcontractor
compliance with contractual and regulatory requirements and determined that Ultimate did not
have the following:

   •	 Controls established to ensure compliance with contractual and regulatory requirements.
   •	 A code of business ethics, an affirmative action program, or controls to ensure that
      subcontractors complied with these regulatory requirements.
   •	 A process in place to ensure that employee eligibility requirements were verified and
      documented in accordance with regulations.
   •	 A process in place to ensure that required subcontractor debarment certifications were
      received at the commencement of the subcontracts.
   •	 Controls to ensure that construction materials met Buy American Act requirements.
   •	 Appropriate controls established to submit accurate Recovery Act reports.

       Implementing recommendations contained in the report will improve controls over
ensuring compliance with required laws and regulations and accurately reporting Recovery Act
spending to the public.

Use of Computer-Processed Data

        We used payroll files, job cost data, and other financial reports from the contractor
Ultimate’s systems to test accuracy of its information reported on FederalReporting.gov. We
also validated expenditures listed in IBWC’s budgetary and billing systems to ensure accuracy of
reporting on FederalReporting.gov. We found no unexplained discrepancies in the expenditure
data reported. We did, however, find one inaccuracy in the data reported on
FederalReporting.gov. This error occurred, however, because of Ultimate’s misunderstanding of
reporting requirements and was not caused by automated data system issues.




                                              10

                                      UNCLASSIFIED
                                             UNCLASSIFIED


                                                                                                 Appendix B


                            INTERNATIONAL BOUNDARY AND WATER COMMISSION
                                      UN ITED STATES AND MEXICO




    .'
     •


         ·s._ "
                   j
                   •
f'tIIlIPt J1(ft:r"'''~''n
  l'rnU~lMf       n, ...
                                              July 19. 2011




         United States Department of State and the Broadcasting Board of Governors
         Office of Inspector General
         Attn : Evelyn R. Klemstine , Assistant Inspector General for Audits
         2201 C. Street. NW.
         Washington . D.C. 20520-0308


         Subject: OIG Audit of International Boundary and Water Commission Construction
         Contract with Ultimate Concrete , LLC .


         Dear Ms. Klemstine:

         We are pleased to provide you the attached responses to the findings and
         recommendations shown in the draft audit report entitled Audit of International Boundary
         and Water Commission Construction Contract with Ultimate Concrete, LLC., using
         Funds provided by the American Recovery and Reinvestment Act Draft Report dated
         March 2011 .

         We note that improvements have already been made in the USIBWC Acquisition
         Division in response to the recommendations provided in the audit report, and specific
         responses to each finding and recommendation are provided .

                                           Sincerely,




                                      ~~   Commissioner


         Attachment as Stated
         cc: D. Forti, C. Parker


           The Commons. BU1ldmg C, SUite 100 . 4171 N Mesa Street . EI Paso, Texas 79902· 1441
                      (915) 832-4100 . Fax (915) 832-4190 . http //WWWibwcgov




                                                        11 


                                             UNCLASSIFIED
                                    UNCLASSIFIED





Thank you for the copy of your report dated June 2011 , we greatly appreciate the
opportunity to respond to the report.

The USIBWC generally agrees with all of the OIG recommendations, and each
recommendation and suggestion that was noted in the report is addressed below:

OIG recommendations and USIBWC response:

   1. Recommendation 1. We recommend that the USIBWC contracting officer for
      IBWC Contract no. IBM10C0009 and IBM10C0018 require that the contractor
      Ultimate Concrete , LLC , implement procedures to ensure that it and its
      subcontractors comply with FAR requirements as they pertain to enrolling as a
      Federal contractor, ensuring employment eligibility, creating a code of business
      ethics and conduct, and ensuring affirmative action.

      Response: Contracts IBM10COO09 and IBM10C0018 contain clause 52.222-54
      -Employment Eligibility Verification- which requires the contractor to enroll in the
      E-Verify program within 30 days of contract award. Attached is the MOU or
      company profile page provided by E-Verify to the contractor. Because of privacy
      laws, Federal Agencies cannot view or gauge the contractor's personnel request
      efforts thru E-Verify. The contractor has been given notice to provide evidence
      of a code of business ethics and conduct to this office within 15 days of this
      response to audit.

   2. Recommendation 2. We recommend that the USIBWC contracting officer for
      Contract IBM10C0009 and IBM10COO18 require that the contractor Ultimate
      Concrete, LLC , obtain and submit current subcontractor certification to confirm
      that it or its principles are not debarred, suspended, or proposed for debarment
      and that the contracting officer ensures that Ultimate establishes procedures to
      obtain these certifications before additional subcontracts are awarded.

      Response: Attached please find the revised payment application verification
      form now in effect to help identify new subcontractors in the fteld . Also find
      attached directive for contractors to submit, along with their payment estimates,
      their list of subcontractors and accompanying SFs1413 for that pay period.
      Finally, also find at Item 2 of USIBWC letter dated Apr 29, 2011 (attached)
      certification from Ultimate that all applicable SFs1413 have been submitted. This
      certification is required from all ARRA recipients.

   3. Recommendation 3. We recommend that the USIBWC contracting officer for
      IBM10COO09 and IBM10C0018 require that the prime contractor establish
      procedures to ensure that materials purchased for ARRA construction projects
      comply with the Buy American Act.

      Response: The USIBWC has been requiring contractors to comply with the Buy
      American Act. A pre-requirement to receiving a Notice to Proceed is submission
      of a Quality Assurance Plan which identifieS the contractor's Quality Control
      Program Manager. The QC Manager is responsible for implementation of the

                                            2




                                                12 


                                    UNCLASSIFIED

                            UNCLASSIFIED




      Buy American Act. That responsibility and ramifications for non-compliance is
      clearly addressed at each pre-construction conference. In turn, the contractor is
      made aware that any material that does not comply with the Buy-American Act
      will not be paid for and may need to be removed at contractor's expense. To
      further comply with the Act, the USIBWC Contracting Officer Representatives
      assigned to each project assure that prior to acceptance of any payment
      application the acceptability of the material furn ished by the prime and its
      subcontractors. Contracted support service providers will again be directed to be
      more vigilant of this requirement. Attached please find contractor's certification
      that they have an established Buy American program in effect under these
      contracts . In addition , subcontractor confirmation of Buy American products is
      attached.

   4 . Recommendation 4: We recommend that the USIBWC contracting officer for
      IBM10C0009 and IBM10C0018 require the prime contractor ensure that relevant
      contracting information is provided in a timely manner to personnel responsible
      for reporting on the Web site FederaIReporting.gov.

      Response: The FederalReporting.gov website provides online training to
      contractors which we agree may be underutilized by the prime and
      subcontractors alike. This office has required ARRA recipients certify that their
      ARRA reporting specialists have taken the seven (7) webinars. The contractor's
      May 10, 2011 certification of this training is attached to this response.


Thank you again for the opportunity to respond to this draft report and please advise us
of any follow-up questions, comments, or concerns about this response letter.

You may reach Hugo White, Acquisitions Oivision Chief at 915-8324711 or Christopher
Parker, Internal Audit Program Manager at 915-8324794 or via email at
Hugo.White@ibwc.gov or Christopher.Parker@ibwc ,gov.




                                            )




                                     13 


                            UNCLASSIFIED

